No. 21IN THE
Kamau Alan Israel
Petitioner,
v.
United States of America,
Respondent.
PROOF OF SERVICE
I, Raffi Melkonian, do swear or declare that on this date, August 27, 2021, as
required by Supreme Court Rule 29, I have deposited a package containing the
Motion for Leave to Proceed In Forma Pauperis and the Petition for Certiorari with
FedEx, with shipping prepaid for Standard Overnight Delivery
I have served the documents on Respondent by USPS, First-Class Mail, to the
following address: Solicitor General of the United States, Department of Justice, 950
Pennsylvania Avenue NW, Washington, D.C. 20530-0001, and by electronic mail
today to the Office of the Solicitor General at SupremeCtBriefs@USDOJ.gov.
I further certify that all parties required to be served have been served. I
declare under penalty of perjury that the foregoing is true and correct.
Executed on August 27, 2021.
Raffi Melkonian
Counsel of Record
Brittany Greger
WRIGHT CLOSE & BARGER, LLP
One Riverway, Suite 2200
Houston, Texas 77056
(713) 572-4321
melkonian@wrightclosebarger.com
greger@wrightclosebarger.com
Counsel for Petitioner.

